OFFICE OF INSPECTOR GENERAL
                Audit Report
         Management Information Report

 Concerns Related to the Railroad Retirement Board’s
Audit and Compliance Division’s Employer Audit Reports


                  Report No. 11-05
                   March 31, 2011




   RAILROAD RETIREMENT BOARD
                                     TABLE OF CONTENTS



INTRODUCTION


    Background ............................................................................................... 1


    Objective ................................................................................................... 2


    Scope ........................................................................................................ 2


    Methodology .............................................................................................. 2


 

RESULTS OF REVIEW


    Reporting on Accuracy of Creditable Service and Compensation ............ 3


    Use of Materiality in Employer Audit Reports ............................................ 4


    Audits Not Completed Timely Resulting in Potential Losses to Trust
    Funds ........................................................................................................ 5


    Conclusion ................................................................................................ 6




                                                          i
                                                               INTRODUCTION

This management information report presents the results of the Office of Inspector
General’s (OIG) review of the Audit and Compliance Division’s (ACD) employer audit
reports.
Background

The Railroad Retirement Board (RRB) is an independent agency in the executive
branch of the Federal government. The RRB administers the retirement/survivor and
unemployment/sickness insurance benefit programs for railroad workers and their
families under the Railroad Retirement Act (RRA) and the Railroad Unemployment
Insurance Act (RUIA). These programs provide income protection during old age and in
the event of disability, death, temporary unemployment, or sickness. The RRB paid
over $10.7 billion in benefits to approximately 631,000 beneficiaries during fiscal year
(FY) 2009.
For calendar year 2009, covered railroads reported to the RRB Tier I and Tier II
creditable service and compensation of $15.34 billion and $14.27 billion, respectively,
for approximately 260,700 workers. 1 During FY 2009, railroads paid approximately
$4.7 billion in railroad retirement taxes and $92.9 million in RUIA contributions. 2
ACD conducts external audits of employers to ensure compliance under the RRA and
RUIA, and verifies the accuracy and timeliness of reported compensation and
contributions. Although the ACD does not have the authority to audit taxes under the
Railroad Retirement Tax Act (RRTA), its staff reviews the compensation amounts on
which these payroll taxes are based.
An error in reporting compensation generally results in a related error in reporting
railroad retirement tax liability. ACD informs employers of additional potential railroad
retirement tax liability, recommends that they report these amounts to the Internal
Revenue Service (IRS), and provides employer audit results to the IRS. The RRB and
the IRS have a signed written agreement (coordination agreement) to facilitate the
sharing of information between the agencies and to coordinate the administration of the
RRTA and RRA.
The ACD performs three main reconciliations during their employer audits. They
reconcile:

       •      creditable compensation reported to the RRB to wages reported to the IRS;
                                                            
1
    A covered railroad is a railroad employer covered by the RRA of 1974, as amended, and RUIA. Tier I is
    the railroad retirement equivalent of social security wages and benefit amounts. Tier II is comparable to
    a private pension. Benefits under the RRA are based in part on the individual’s years of service and
    amount of compensation credited to the individual under the RRA. The term compensation means any
    form of payment made to an individual for services rendered as an employee for a (covered) employer.
2
    Railroad retirement benefits are funded by payroll taxes collected under the RRTA and railroad
    unemployment and sickness benefits are funded by contributions collected under the RUIA.


                                                                    1
       •      creditable compensation reported to the RRB to taxable RRTA compensation
              reported to the IRS; and
       •      quarterly RUIA compensation reported to the RRB on Forms DC-1 to annual
              RUIA compensation reported to the RRB on Form BA-3. 3
The OIG issued Audit Report No. 11-04, “Review of the Railroad Retirement Board’s
Audit and Compliance Division” on February 1, 2011. Some of the key findings were:

       •      audits were not conducted in accordance with generally accepted government
              auditing standards (GAGAS);
       •      audit results were not fully supported; and
       •      audit timeliness and follow-up need improvement.
Because of the deficiencies in ACD’s audit and reporting process, the OIG initiated this
review. This review supports the RRB’s strategic plan's goal to safeguard customers'
trust funds through prudent stewardship.
Objective
The objective of this review was to identify additional areas of concern related to ACD’s
employer audit reports.
Scope
The scope of this review was limited to the 26 employer audit reports issued by ACD in
fiscal years 2008 through 2010. Our scope was limited to a review of the reports only
and not of the supporting working papers.
Methodology
To accomplish our objective, we:

       •      reviewed the employer audit reports issued by ACD;
       •      reviewed the OIG’s recent audit report on ACD;
       •      reviewed the coordination agreement between the RRB and IRS; and
       •      reviewed interviews with responsible ACD management and staff from other
              recent OIG audits related to ACD.
We conducted our fieldwork at the RRB’s headquarters in Chicago, Illinois from January
through March 2011.

                                                            
3
    Employers file Form DC-1, Employer’s Quarterly Report of Contributions under the Railroad
    Unemployment Insurance Act, to report RUIA contribution liability. These reports include the amount of
    RUIA compensation subject to contribution. The total of the quarterly compensation amounts for an
    employer should agree with total RUIA compensation reported by the employer on Form BA-3, Annual
    Report of Creditable Compensation.

                                                               2
                                                               RESULTS OF REVIEW

The OIG’s review of the employer audit reports issued by ACD identified several areas
of concern. ACD’s employer audit reports do not clearly answer one of the stated
objectives and do not sufficiently explain how the completed audit work supports this
objective. In addition, ACD does not clearly explain its use of materiality thresholds in
their employer audit reports. Finally, ACD did not complete their employer audit reports
in a timely manner and did not always select the best years for review based upon the
timing of their audit work. Details of these findings follow.
Reporting on Accuracy of Creditable Service and Compensation
ACD’s employer audit reports do not clearly answer one of their primary audit objectives
of determining the accuracy of creditable service and compensation reports filed under
the RRA. According to GAGAS, “auditors should present sufficient, appropriate
evidence to support the findings and conclusions in relation to the audit objectives.”
GAGAS also states that “a finding or set of findings is complete to the extent that the
auditors address the audit objectives.” 4
ACD’s employer audit reports state that the audited employer generally administered its
responsibilities under the RRA and RUIA in accordance with the laws and regulations
applicable to the scope of the review. However, this overall conclusion does not
adequately address the accuracy of service and compensation reporting. The employer
audit reports do not specifically address the objective of determining the accuracy of
service and compensation reported to the RRB. By comparison, the employer audit
reports do specifically answer another audit objective of whether creditable
compensation reported to the RRB agrees to taxable compensation reported to the IRS
for RRTA purposes. However, this reconciliation is not meaningful to report users since
the employer audit reports do not first establish the accuracy of compensation reported
to the RRB.
ACD management told the OIG that they test the accuracy of creditable compensation
in each employer audit by reconciling creditable compensation reported to the RRB to
wages reported to the IRS. However, ACD only reported the results of this
reconciliation in 12 of 26 reports. Reconciliation differences were reported for each of
these 12 reports. Report readers must infer that the presented information addresses
the accuracy of creditable compensation reported under the RRA. ACD’s employer
audit reports do not indicate that ACD tested the accuracy of creditable compensation
and do not describe how the accuracy of creditable compensation is tested. GAGAS
indicates that auditors should explain how completed audit work supports the audit
objectives to allow knowledgeable users of their reports to understand how the auditors
addressed the audit objectives. 5


                                                            
4
    “Government Auditing Standards,” GAO-07-731G, paragraph 8.14, July 2007 Revision.
5
    “Government Auditing Standards,” GAO-07-731G, paragraph 8.13, July 2007 Revision.


                                                                       3
In order to provide more clarity in their employer audit reports, ACD should explain how
the accuracy of creditable compensation reported to the RRB was tested and
specifically conclude on the accuracy of this testing.
Use of Materiality in Employer Audit Reports
ACD uses materiality thresholds in their employer audit reports without defining these
levels, or in some cases, informing the reader of their use. The OIG identified that ACD
used a materiality threshold to determine that reconciliation differences did not need
resolution or corrective action in 17 of 26 reports. However, the threshold amount was
often not provided in the reports.
GAGAS defines materiality as the relative importance of a matter within the context in
which is being considered, including quantitative and qualitative factors. 6
The coordination agreement between the IRS and RRB does not define a materiality
level for referral of RRTA matters to the IRS. In addition, the RRB’s employer reporting
instructions and filing instructions for reports of service and compensation do not define
materiality thresholds for employer reporting.
ACD applied materiality thresholds to disregard differences in reconciliations of
creditable compensation reported to the RRB and taxable compensation reported to the
IRS. They also applied materiality to reconciliations of creditable compensation
reported to the RRB and compensation subjected to quarterly RUIA contributions. ACD
refers to the reconciliation differences below threshold amounts as immaterial,
reconciled to an acceptable degree, or de minimis. 7 However, ACD reports do not
define the threshold for reconciled to an acceptable degree or de minimis differences.
When ACD classifies a reconciliation difference as immaterial, they sometimes indicate
in the report that the difference is immaterial because it constitutes less than 1% of the
amount of compensation reported.
When ACD identifies compensation reporting errors, they normally recommend that
employers file amended tax returns with the IRS to correct any applicable RRTA tax
amounts. However, in some cases ACD determined that the compensation reporting
differences were either immaterial, reconciled to an acceptable degree, or de minimis.
Therefore, ACD did not recommend that employers file amended returns to correct the
RRTA tax amounts. As a result, the OIG identified approximately $50,000 in
underreported and $17,000 in over reported RRTA taxes, for a potential net loss of
$33,000 to the RRB’s trust funds.
ACD management and staff informed the OIG that they also apply materiality thresholds
to the reconciliation of creditable compensation reported to the RRB to wages reported
to the IRS for each railroad employee. ACD does not investigate or report on individual
differences of less than $2,500 for employees of Class I employers and individual
                                                            
6
    “Government Auditing Standards,” GAO-07-731G, paragraph 7.04 and footnote 89, July 2007 Revision.
7
    De minimis is commonly defined as so small or minimal in difference that it does not matter or the law
    does not take it into consideration.

                                                               4
differences of less than $1,000 for employees of all other railroad employers. 8 ACD
does not disclose these materiality thresholds in its reports. Although GAGAS allows
auditors to use professional judgment when evaluating the significance of the results of
audit work, these amounts are excessive when applied to each individual’s creditable
compensation. 9
Audits Not Completed Timely Resulting in Potential Losses to Trust Funds
ACD issued 16 employer audit reports where the statute of limitations for amending
RRTA taxes had expired by the report date for at least one of the audited years. In one
of these reports, ACD identified potential additional RRTA taxes of approximately
$88,000. ACD indicated that the statute of limitations for amending these taxes had
expired but the employer could voluntarily file returns to adjust the taxes. The employer
chose not to file the amended returns resulting in a net loss of approximately $88,000 to
the RRB Trust Funds. In another employer audit report, ACD made no
recommendation on underreported RRTA taxes of approximately $1,400 for a year
outside the statute of limitations.
There were five other audits where ACD identified underreported RRTA taxes where the
statute of limitations had expired. However, the employers indicated they would file
amended returns with the IRS. The remaining nine reports had no findings resulting in
underreported RRTA.
The statute of limitations for amending railroad retirement tax returns expires three
years after the date the return is due, or the date filed, whichever is later. Returns are
due by the last day of February of the following calendar year.
The RRB currently has an agreement with the IRS to coordinate the administration of
the RRTA by the IRS and the RRA by the RRB. Under Section 6.1(c) of this
coordination agreement, the RRB Chief Financial Officer (CFO) is to provide a list of
projected audits for each upcoming year to assist IRS in protecting the statute of
limitations. 10 In addition, Section 11.1 provides that the RRB CFO will send a written
request asking the IRS to take appropriate steps to protect the RRTA statute of
limitations in cases that have been fully developed by the RRB auditors and where there
is potential significant financial impact to the RRB’s trust funds. The agreement further
states that the IRS will act at its own discretion and provide a written response to the
CFO regarding their decision.
In an attempt to improve the timeliness of employer audit reports, ACD reduced their
audit period from three to two years. From September 2009 through September 2010
ACD issued ten reports with a two year audit period. Although these reports were

                                                            
8
    A Class I railroad in the United States, or a Class I railway (Class I rail carrier) in Canada, is one of the
    largest freight railroads, as classified based on operating revenue.
9
    “Government Auditing Standards,” GAO-07-731G, paragraph 7.04, July 2007 Revision.
10
     Protecting the statute of limitations refers to extending the number of years for which additional tax can
     be assessed.

                                                               5
issued in a more timely manner, the audit period in five of these reports still included a
year where the statute of limitations had expired by the report date.
In addition, nine of these ten reports could have included a more current year in the
audit period thereby decreasing the risk of losing a year to the statute of limitations.
The audit period in each report was January 1, 2006 through December 31, 2007.
However, all reports and other information required to audit 2008 should have been
available well before on-site field work began on these audits.
The OIG is concerned about the effectiveness of the process for protecting the statute
of limitations. The OIG acknowledges that the RRB does not have the authority to audit
compliance with the RRTA. However, since reporting errors under the RRA generally
result in an error in reporting under the RRTA, and taxes collected under the RRTA fund
railroad retirement benefits, the RRB has a vested interest in ensuring that railroad
employers are reporting and paying the correct amount of RRTA taxes. Therefore, ACD
should attempt to confirm that the IRS has protected the statute of limitations for
employers and tax years for upcoming ACD employer audits.
Conclusion
The OIG is not making formal recommendations based on our review of ACD employer
audit reports because we recently issued Report No.11-04, “Review of the Railroad
Retirement Board’s Audit and Compliance Division” on February 1, 2011. This report
made widespread recommendations for corrective action. However, we wanted to
highlight additional OIG concerns for consideration during ACD’s implementation of
corrective action and revision of its policies and procedures. To further improve their
employer audit reports, ACD should:
   •   specifically answer the objective of whether service and compensation reported
       to the RRB is accurate and should describe the work done to answer this
       objective;

   •   define materiality thresholds (including de minimis and reconciled to an
       acceptable degree) when used in employer audit reports;

   •   work with the IRS to establish a materiality threshold for referral of RRTA
       matters;

   •   reduce the materiality thresholds it uses for reconciliation differences when
       determining the accuracy of individual’s creditable compensation reported to the
       RRB;

   •   periodically attempt to confirm that the IRS has protected the statute of limitations
       for upcoming ACD employer audits; and

   •   audit the most current years for which the needed reports and records are
       available. They should be cognizant of the statute of limitations in selecting
       years for review and in completing their audit reports.



                                             6
